The Honorable Scott S. Harris,
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Kauntau Reeder v. Darrel Vannoy, Warden No. 20-7674

Dear Mr. Harris,

July 20, 2021

This Court ordered the State of Louisiana to file a response in the above-referenced matter. We
initially requested 60 days to review the matter and prepare a response. This request was granted
May 18th 2021, rendering the petition due on August 2nd, 2021.
Under Rule 30.4 of the Rules of the Court, respondent is requesting an additional thirty days.
Counsel for petitioner have no objection to a request for an extension of thirty days time to and
including September 1, 2021, within which to file a response.
This case involves an allegation by Petitioner of a Brady violation by the Orleans Parish District
Attorney’s Office during the 1993 trial of Petitioner for the second degree murder of Mark
Broxton. This extension is requested because our review of the underlying case-file required us
to make additional disclosures to the petitioner. We are in the process of assessing whether this
information was previously disclosed, and what impact the non-disclosure would have on these
proceedings.
Sincerely,

_/s/ G. Ben Cohen____________
G. Ben Cohen (La. Bar No. 25370)
Chief of Appeals
Orleans Parish District Attorney’s Office
Parish of Orleans
619 South White Street
New Orleans, Louisiana 70119
Telephone: (504) 827-6336
Email: bcohen@orleansda.com

